                                                              United States Department of State
                                                              and the Broadcasting Board of Governors

                                                              Office of Inspector General




                                                                        JUL 29 2011
                                                                        JUL    2011

The Honorable Edward Drusina, U.S . Commissioner
International Boundary and Water Commission
United States and Mexico, U.S . Section
4171 North Mesa Street, Suite C- l 00
El Paso, TX 79902-1441

                  Drusina:
Dear Commissioner Drusina:

Enclosed for your review and action is a copy of the report Audit of International Boundary and
Water Commission Construction Contract With Lakeshore Engineering Services, Inc.,   Inc., Using
Funds Provided by the American Recovery and Reinvestment Act (AUD/CG-           II-20). As the
                                                                    (AUD/CG-11-20).
action office for Recommendations 1- 6, please provide your response to the report and
information on actions taken or planned for the six recommendations within 30 days of the date
of this letter. Actions taken or planned are subject to followup and reporting in accordance with
the enclosed compliance response information.

The Office of Inspector General (OIG) incorporated your comments as appropriate within the
body of the report and included them in their entirety as Appendix B.
                                                                   B.

OIG appreciates the cooperation and assistance provided by your staff during this audit. If you
have any questions, please contact Evelyn R.
                                          R. Klemstine, Assistant Inspector General for Audits,
at (202) 663-0372 or Richard Astor, Director, Division of Contracts and Grants, at (703) 284-
26011 or by email at astorr@state.gov.
260

Sincerely,



Harold W. Geisel
Deputy Inspector General

Enclosures: As stated.
Enclosures:

cc:
cc:          (b) (6)
              (b) (6)
                    (b) (6)
                    (b) (6)
              (b) (6)
                                                                UNCLASSIFIED


                                               United States Department of State

                                            and the Broadcasting Board of Governors

                                                   Office of Inspector General

Office of Inspector General


                                                        Office of Audits



                                                 Audit of

                                       International Boundary and

                                 Water Commission Construction Contract 

                                 With Lakeshore Engineering Services, Inc.,

                                       Using Funds Provided by the

                                 American Recovery and Reinvestment Act


                                              Report Number AUD/CG-11-20, July 2011




                                                                Important Notice

                               This report is intended solely for the official use of the Department of State or the
                               Broadcasting Board of Governors, or any agency or organization receiving a copy
                               directly from the Office of Inspector General. No secondary distribution may be
                               made, in whole or in part, outside the Department of State or the Broadcasting Board
                               of Governors, by them or by other agencies of organizations, without prior
                               authorization by the Inspector General. Public availability of the document will be
                               determined by the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper
                               disclosure of this report may result in criminal, civil, or administrative penalties.



                                                               UNCLASSIFIED

                                                                United States Department of State
                                                                and the Broadcasting Board of Governors

                                                                Office of Inspector General


                                             PREFACE

        This report is being transmitted pursuant to the Inspector General Act of 1978, as
amended, and Section 209 of the Foreign Service Act of 1980, as amended. It is one of a series
of audit, inspection, investigative, and special reports prepared as part of the Office of Inspector
General's (OIG) responsibility to promote effective management, accountability, and positive
change in the Department of State and the Broadcasting Board of Governors.

        This report addresses the International Boundary and Water Commission's (IBWC)
compliance with Federal, Department, and American Recovery and Reinvestment Act (Recovery
Act) acquisition management practices. The report is based on interviews with employees and
officials of relevant agencies and institutions, direct observation, and a review of applicable
documents.

       OIG contracted with the independent public accountant, Cotton & Company, LLP, to
perform this audit. The contract required that Cotton perform its audit in accordance with
guidance contained in the Government Auditing Standards, issued by the Comptroller General of
the United States. Cotton's report is included.

       Cotton identified three areas in which improvements could be made: complying with all
relevant Federal laws and regulations, including those of the Recovery Act; having adequate
processes and systems in place to collect information required to be reported by the Recovery
Act; and providing complete and accurate information as required by the Recovery Act.

        OIG evaluated the nature, extent, and timing of Cotton's work; monitored progress
throughout the audit; reviewed Cotton's supporting documentation; evaluated key judgments;
and performed other procedures as appropriate. OIG concurs with Cotton's findings, and the
recommendations contained in the report were developed on the basis of the best knowledge
available and were discussed in draft form with those individuals responsible for
implementation. ~IG ' s analysis of management's response to the recommendations has been
incorporated into the report. OIG trusts that this report will result in more effective, efficient,
and/or economical operations.

        I express my appreciation to all of the individuals who contributed to the preparation of
this report.


                                   ~- ~
                                       Harold W. Geisel
                                       Deputy Inspector General
                                      UNCLASSIFIED





Audit of International Boundary and Water Commission Construction Contract With
Lakeshore Engineering Services, Inc., Using Funds Provided by the American Recovery and
Reinvestment Act


Office of Inspector General
U.S. Department of State
Washington, D.C.

Cotton & Company, LLP (referred to as “we” in this letter), has performed an audit of the
International Boundary and Water Commission’s (IBWC) construction contract with Lakeshore
Engineering Services, Inc., using funds provided by the American Recovery and Reinvestment
Act of 2009 (Recovery Act). We evaluated Lakeshore’s compliance with relevant Federal laws
and regulations, including those of the Recovery Act; adequacy of processes and systems in
place to collect information required to be reported by the Recovery Act; and accuracy and
completeness of required report submissions. This performance audit, performed under Contract
No. S-AQM-PD-04-D0035, was designed to meet the objective identified in the report section
titled “Objective” and further defined in Appendix A, “Scope and Methodology.”

We conducted this performance audit in accordance with Government Auditing Standards, issued
by the Comptroller General of the United States. We communicated the results of our
performance audit and related findings and recommendations to the Department of State Office
of Inspector General.

We appreciate the cooperation provided by personnel in Department offices during the audit.


Cotton & Company, LLP




Michael W. Gillespie, CPA, CFE
Partner


Alexandria, Virginia
July 2011

                                      UNCLASSIFIED

                               UNCLASSIFIED




ACRONYMS

Department     Department of State

FAR            Federal Acquisition Regulation

FTE            full-time-equivalent

IBWC           International Boundary and Water Commission

OIG            Office of Inspector General

Recovery Act   Recovery and Reinvestment Act of 2009




                               UNCLASSIFIED

                                    UNCLASSIFIED



                                  TABLE OF CONTENTS


Section                                                                         Page
Executive Summary                                                                   1
Background                                                                          1
Objective                                                                           2
Results of Audit                                                                    2
  Finding A. Contractor Did Not Comply With All Contract Terms and Conditions       2

  Finding B. Required Subcontractor Certifications Were Not Obtained                4

  Finding C. Subcontracts Did Not Include Required Recovery Act Clauses             6

  Finding D. Recovery Act Labor Reporting Was Inaccurate and Incomplete             6


List of Recommendations                                                             8
Appendices
A Scope and Methodology                                                             9

B International Boundary and Water Commission Response                             11





                                    UNCLASSIFIED

                                        UNCLASSIFIED


                                     Executive Summary
       The Department of State (Department), Office of Inspector General (OIG), Office of
Audits, engaged Cotton & Company, LLP (referred to as “we” in this report), to conduct
performance audits of contractors that received funding provided by the American Recovery and
Reinvestment Act of 2009 (Recovery Act) from the International Boundary and Water
Commission (IBWC). The audit objective was to determine whether contractors that received
Recovery Act funds from IBWC complied with relevant Federal laws and regulations, including
those of the Recovery Act; had adequate processes and systems in place to collect information
required to be reported by the Recovery Act; and submitted required reports that are accurate and
complete. One contractor selected for review was Lakeshore Engineering Services, Inc.

        Lakeshore was awarded a contract on December 30, 2009, to furnish all labor, materials,
and equipment for construction of improvements on the Upper Rio Grande Flood Control
Project, which includes the Rehabilitation for the Rio Grande Canalization Protective Levee
System, Mesilla Levee Segment, in Dona Ana County, New Mexico, in the amount of
$26,129,127.97. Lakeshore invoiced and was paid $3,808,941.16 for work performed through
June 30, 2010.

        Lakeshore did not have adequate processes and systems in place to ensure that
subcontractors were aware of and in compliance with certain relevant Federal laws and
regulations, including those of the Recovery Act and the Davis-Bacon Act. Also, Lakeshore did
not accurately report job figures in quarterly reports as required by the Recovery Act. We
recommended that the IBWC contracting officer require Lakeshore to comply with Recovery Act
requirements.

      In its response (see Appendix B), IBWC complied with the report’s six
recommendations, which we consider resolved, pending further action.

                                          Background
        IBWC is an international body composed of the United States Section and the Mexican
Section. Each section is administered independently of the other. The United States Section is a
Federal Government agency and has its headquarters in El Paso, Texas. IBWC operates under
the foreign policy guidance of the Department of State. The mission of IBWC is to apply the
rights and obligations that the Governments of the United States and Mexico assume under the
numerous boundary and water treaties and related agreements. IBWC’s obligations include
construction, operation, and maintenance of levees and floodway projects along the Rio Grande
River.

        The Recovery Act provided $220 million to IBWC for the Rio Grande Flood Control
Project to evaluate needed repairs and/or rehabilitation of deficient portions of the flood control
systems, with all funds required to be obligated by September 30, 2010. Repairs and
rehabilitation entail raising levee segments to original design levels and reconstructing segments
where the integrity of the structures has been compromised. The project consists of two primary


                                                 1

                                        UNCLASSIFIED
                                              UNCLASSIFIED


phases: the Preconstruction Phase, which involves geotechnical investigations, environmental
documentation, and design, and the Construction Phase, which involves project construction.
IBWC projects can continue to expend Recovery Act funds for contracts as long as those funds
were obligated by September 30, 2010.

         IBWC awarded Contract No. IBM10C0004 for $26,129,127.97 to Lakeshore Engineering
Services, Inc., on December 30, 2009, to furnish all labor, materials, and equipment for the
construction of improvements on the Upper Rio Grande Flood Control Project, which includes
the Rehabilitation for the Rio Grande Canalization Protective Levee System, Mesilla Levee
Segment, located in Dona Ana County, New Mexico. Lakeshore invoiced and was paid
$3,808,941.16 for work performed through June 30, 2010. The contract had two modifications:
one that added new work and adjusted the current contract value upward by $37,955.79, to a
total of $26,167,083.76, and the other a no-cost 65-calendar-day extension. The Notice to
Proceed for this modification was issued on January 25, 2010, with a performance period of 430
calendar days.

                                                  Objective
        The audit objective was to determine whether contractors that received Recovery Act
funds from IBWC complied with relevant Federal laws and regulations, including those of the
Recovery Act; had adequate processes and systems in place to collect information required to be
reported by the Recovery Act; and submitted required reports that are accurate and complete.

                                             Results of Audit
        Lakeshore had controls in place to comply with requirements of the Davis-Bacon,
Copeland, and Buy American Acts. It had functioning business ethics, equal opportunity, and
affirmative action programs. It did not, however, have adequate processes and systems in place
to ensure that subcontractors were aware of and in compliance with certain relevant Federal laws
and regulations, including those of the Recovery Act and the Davis-Bacon Act. Also, Lakeshore
did not accurately report job figures in quarterly reports as required by the Recovery Act.

Finding A. Contractor Did Not Comply With All Contract Terms and
Conditions

        The contractor Lakeshore and its subcontractors did not comply with all terms and
conditions of Lakeshore’s Recovery Act construction contract. Specifically, Lakeshore did not
have controls in place to ensure that subcontractors were paying their employees in accordance
with the Davis-Bacon Act and that subcontractors used E-Verify in accordance with the
contractual requirements. The Davis-Bacon Act, as outlined in the Federal Acquisition
Regulation (FAR),1 requires that laborers be paid “the full amount of wages and bona fide fringe
benefits (or cash equivalents thereof) due at time of payment computed at rates not less than

1
    FAR 52.222-6(b)(1), “Davis-Bacon Act.” (July 2005)


                                                         2

                                              UNCLASSIFIED
                                             UNCLASSIFIED


those contained in the wage determination of the Secretary of Labor.” One of Lakeshore’s
subcontractors, Construction Surveying Services, paid all laborers at wage rates lower than those
required in the Labor Rate Schedule.

        Also, the FAR2 requires Federal contractors and subcontractors to enroll “as a Federal
Contractor in the E-Verify program within 30 calendar days” of contract award. However, two
subcontractors, Guzman Construction and Construction Surveying Services, did not use E-Verify
as required to validate employee eligibility in accordance with these requirements.

       E-Verify is an Internet-based free program run by the U.S. Government that compares
information about an employee’s employment eligibility from Form I-9, Employment Eligibility
Verification, with data from U.S. Government records. If the information matches, that
employee is eligible to work in the United States. If there is a mismatch, E-Verify alerts the
employer, and the employee is allowed to work while he or she resolves the dispute within 8
days. The program is operated by the Department of Homeland Security in partnership with the
Social Security Administration.

        Lakeshore representatives stated that they relied on the subcontractors to follow
requirements outlined in their subcontract agreements without additional monitoring on their
part. However, subcontractor personnel receiving Recovery Act funds were not paying their
employees adequate wages for work performed and may be employing personnel who are not
eligible to work in the United States.

        In addition, one of Lakeshore’s subcontractors, Guzman Construction, did not provide
evidence that it had a code of business ethics and conduct, as required by the FAR.3 Specifically,
a subcontractor with a subcontract valued in excess of $5 million and a period of performance of
more than 120 days is required to have, “within 30 days after contract award,” a “written code of
business ethics and conduct” and to make the code available to every employee working on the
contract. The FAR4 also requires the subcontractor to “exercise due diligence to prevent and
detect criminal conduct” and to “otherwise promote an organizational culture that encourages
ethical conduct and a commitment to compliance with the law.”

        Without adequate policies in place and proper adherence to those policies, the risk of
improper conduct in connection with Federally funded contracts increases.

        Two of five Lakeshore subcontractors, Guzman Construction and Archana Engineering,
did not provide evidence that they had written affirmative action policies in accordance with the
FAR.5 The FAR requires contractors and subcontractors to take “affirmative action to ensure
equal employment opportunity” and further requires the contractor’s compliance to be “based
upon its effort to achieve maximum results from its actions.” The FAR further requires the

2
  FAR 52.222-54(b)(1)(i) and (e), “Employment Eligibility Verification.” (January 2009) 

3
  FAR 52.203-13(b)(1)(i)-(b)(1)(ii) and (d), “Contractor Code of Business Ethics and Conduct.” (December 2008) 

4
  FAR 52.203-13(b)(2)(i) and (ii) and FAR 52.203-13(d). 

5
  FAR 52.222-27(b) and (g), “Affirmative Action Compliance Requirements for Construction.” (February 1999) 



                                                        3

                                             UNCLASSIFIED
                                            UNCLASSIFIED


efforts to be “fully documented” and “affirmative action steps” to be implemented. Both
subcontractors did not respond to multiple requests made by Lakeshore for this information.
Without adequate controls in place, Lakeshore has no assurance that its subcontractors are able
to take action to ensure affirmative action and equal employment opportunity for minorities and
women.

        Recommendation 1. We recommend that the International Boundary and Water
        Commission (IBWC) contracting officer for IBWC Contract No. IBM10C0004 require
        the contractor Lakeshore Engineering Services, Inc., to implement procedures to ensure
        that its subcontractors comply with requirements of the Federal Acquisition Regulation
        as they pertain to paying employees proper rates, ensuring employment eligibility, and
        maintaining appropriate code of conduct and affirmative action programs.

        IBWC Response: IBWC concurred with the recommendation, stating that the
        contracting officer “will issue a Deficiency and Omission report . . . identifying its failure
        to implement the flow-down clauses with its subcontractors and require a plan of action.”

        OIG Analysis: Based on IBWC’s response, OIG considers the recommendation
        resolved. The recommendation can be closed pending OIG’s review and acceptance of
        documentation showing that IBWC has issued the report and received a plan of action.

        Recommendation 2. We recommend that the International Boundary and Water
        Commission (IBWC) contracting officer for IBWC Contract No. IBM10C0004 ensure
        that Lakeshore Engineering Services, Inc.’s subcontractor Construction Surveying
        Services adjusts the rate of pay for its laborers to be in compliance and pay the amounts
        owed.

        IBWC Response: IBWC concurred with the recommendation, stating that the
        contracting officer “will issue a notice” to Lakeshore “identifying a potential Department
        of Labor violation” and “requiring evidence of action” to be taken.

        OIG Analysis: Based on the response, OIG considers the recommendation resolved.
        The recommendation can be closed pending OIG’s review and acceptance of
        documentation showing IBWC’s requirement for evidence of action.

Finding B. Required Subcontractor Certifications Were Not Obtained
        The contractor Lakeshore did not obtain certification from its subcontractors that at the
time of award “the subcontractor, or its principals, is or is not debarred, suspended, or proposed
for debarment by the Federal Government” in accordance with the FAR.6 Lakeshore
representatives stated that they did not obtain the certifications because they work with the
subcontractors on a regular basis and did not believe the certifications were necessary.


6
 FAR 52.209-6(b), “Protecting the Government’s Interest When Subcontracting with Contractors Debarred,
Suspended, or Proposed for Debarment.” (April 2010)

                                                      4

                                            UNCLASSIFIED
                                        UNCLASSIFIED


        The failure to obtain required certifications could result in subcontracts being awarded to
companies that have been debarred, suspended, or proposed for debarment. We were, however,
able to verify that the subcontractors were not included in the Excluded Parties List System
(EPLS), which is an electronic Web-based system that identifies those parties excluded from
receiving Federal contracts.

       Recommendation 3. We recommend that the International Boundary and Water
       Commission (IBWC) contracting officer for IBWC Contract No. IBM10C0004 ensure
       that the contractor Lakeshore Engineering Services, Inc., requires its current
       subcontractors to retroactively submit certifications stating that they or their principals
       are not debarred, suspended, or proposed for debarment.

       IBWC Response: IBWC concurred with the recommendation, stating that the
       contracting officer “will issue a notice” to Lakeshore requiring evidence of certifications
       pertaining to principals debarred, suspended, or proposed for debarment.

       OIG Analysis: Based on IBWC’s response, OIG considers the recommendation
       resolved. The recommendation can be closed pending OIG’s review and acceptance of
       documentation showing that IBWC obtained certifications from Lakeshore’s
       subcontractors stating they or their principals are not debarred, suspended, or proposed
       for debarment.

       Recommendation 4. We recommend that the International Boundary and Water
       Commission (IBWC) contracting officer for IBWC Contract No. IBM10C0004 ensure
       that the contractor Lakeshore Engineering Services, Inc., establishes procedures to obtain
       certifications stating that its subcontractors are not debarred, suspended, or proposed for
       debarment before it awards additional subcontracts.

       IBWC Response: IBWC concurred with the recommendation, stating that the
       contracting officer “will issue a notice” to Lakeshore requiring certification that by
       June 30, 2011, Lakeshore has established procedures to obtain certifications [stating] that
       its subcontractors are not debarred, suspended, or proposed for debarment before it
       awards additional subcontracts.”

       OIG Analysis: Based on IBWC’s response, OIG considers the recommendation
       resolved. The recommendation can be closed pending OIG’s review and acceptance of
       documentation showing that IBWC obtained Lakeshore’s certifications stating that its
       subcontractors are not debarred, suspended, or proposed for debarment before it awards
       additional subcontracts.

Finding C. Subcontracts Did Not Include Required Recovery Act Clauses
       The contractor Lakeshore’s subcontract agreements did not include two required
Recovery Act clauses. Specifically, four of five subcontracts reviewed did not include FAR
clauses 52.203-15, “Whistleblower Protections Under the American Recovery and Reinvestment


                                                 5

                                        UNCLASSIFIED
                                            UNCLASSIFIED


Act of 2009,” and 52.232-27, “Prompt Payment for Construction Contracts.” The FAR7 requires
whistleblower protection clauses to be included in all subcontracts. Additionally, the FAR8
states that the Prompt Payment clause is to be included in each subcontract for property or
services because the clause serves to outline contractor responsibility to pay in a timely manner
or pay interest. Additionally, the subcontractor also must include and abide by the clause in
lower-tier subcontracts.

       Lakeshore representatives stated that the required information was provided but was not
maintained in the subcontracting files. Without this information, subcontractors may not be
aware of their whistleblower protections or prompt payment rights and responsibilities on
subcontracts with Lakeshore.

        Recommendation 5. We recommend that the International Boundary and Water
        Commission (IBWC) contracting officer for IBWC Contract No. IBM10C0004 require
        the contractor Lakeshore Engineering Services, Inc., to ensure that all relevant clauses in
        the Federal Acquisition Regulation are formally included in Lakeshore’s subcontracts.

        IBWC Response: IBWC concurred with the recommendation, stating that the
        contracting officer will require the prime contractor to require a certification from
        Lakeshore to be submitted by June 30, 2011, stating that Lakeshore has ensured that all
        relevant clauses in the FAR are formally included in Lakeshore’s subcontracts.

        OIG Analysis: Based on the response, OIG considers the recommendation resolved.
        The recommendation can be closed pending OIG’s review and acceptance of
        documentation showing that IBWC obtained a certification by June 30, 2011, from
        Lakeshore stating that Lakeshore has ensured that all relevant clauses in the FAR have
        been formally included in its subcontracts.

Finding D. Recovery Act Labor Reporting Was Inaccurate and Incomplete

        The contractor Lakeshore incorrectly calculated and reported the number of jobs created
and retained. Specifically, it calculated jobs by using average jobs per quarter based on the
number of people reported on the daily reports rather than by using the full-time-equivalent
(FTE) method required by the FAR. The FAR9 explains that jobs created and jobs retained
“shall be expressed as ‘full time equivalents’ (FTE), calculated cumulatively as all hours worked
divided by the total number of hours in a full-time schedule.” The Web site
FederalReporting.gov Frequently Asked Questions for Federal Contractors provides specific
examples of the calculation. The jobs created and retained were understated in the first quarter of
2010 reporting by three FTEs and overstated by 15 FTEs in the second quarter of 2010 reporting.
Lakeshore officials stated that they did not realize that more specific information was available
to provide methodology for calculating the number of jobs.

7
  FAR 52.203-15(b), “Whistleblower Protections Under the American Recovery and Reinvestment Act of 2009.” 

(March 2009) 

8
  FAR 52.232-27(c), “Prompt Payment for Construction Contracts.” (Oct.2008)

9
  FAR 52.204-11(a), “American Recovery and Reinvestment Act, Reporting Requirements.” (March 2009) 


                                                     6

                                            UNCLASSIFIED
                               UNCLASSIFIED




Recommendation 6. We recommend that the International Boundary and Water
Commission (IBWC) contracting officer for IBWC Contract No. IBM10C0004 require
the contractor Lakeshore Engineering Services, Inc., to ensure that its personnel are
aware of the reporting requirements of FederalReporting.gov, specifically, how to
calculate the number of jobs created and retained under IBWC’s Recovery Act
construction contract, and to ensure that required reports are accurate.

IBWC Response: IBWC concurred with the recommendation, agreeing that online
training “may be underutilized by the prime and subcontractors alike.” IBWC further
stated that it will require Recovery Act recipients to certify that their Recovery Act
reporting specialists have taken seven “webinars [Web-based seminars]” within 60 days
of the response to the audit.

OIG Analysis: Based on the response, OIG considers the recommendation resolved.
The recommendation can be closed pending OIG’s review and acceptance of
documentation showing that the Recovery Act reporting specialists have taken the seven
webinars within 60 days of IBWC’s response to the audit report.




                                       7

                               UNCLASSIFIED
                                       UNCLASSIFIED



                                 List of Recommendations

Recommendation 1. We recommend that the International Boundary and Water Commission
(IBWC) contracting officer for IBWC Contract No. IBM10C0004 require the contractor
Lakeshore Engineering Services, Inc., to implement procedures to ensure that its subcontractors
comply with requirements of the Federal Acquisition Regulation as they pertain to paying
employees proper rates, ensuring employment eligibility, and maintaining appropriate code of
conduct and affirmative action programs.

 Recommendation 2. We recommend that the International Boundary and Water Commission
(IBWC) contracting officer for IBWC Contract No. IBM10C0004 ensure that Lakeshore
Engineering Services, Inc.’s subcontractor Construction Surveying Services adjusts the rate of
pay for its laborers to be in compliance and pay the amounts owed.

Recommendation 3. We recommend that the International Boundary and Water Commission
(IBWC) contracting officer for IBWC Contract No. IBM10C0004 ensure that the contractor
Lakeshore Engineering Services, Inc., requires its current subcontractors to retroactively submit
certifications stating that they or their principals are not debarred, suspended, or proposed for
debarment.

Recommendation 4. We recommend that the International Boundary and Water Commission
(IBWC) contracting officer for IBWC Contract No. IBM10C0004 ensure that the contractor
Lakeshore Engineering Services, Inc., establishes procedures to obtain certifications that its
subcontractors are not debarred, suspended, or proposed for debarment before it awards
additional subcontracts.

Recommendation 5. We recommend that the International Boundary and Water Commission
(IBWC) contracting officer for IBWC Contract No. IBM10C0004 require the contractor
Lakeshore Engineering Services, Inc., to ensure that all relevant clauses in the Federal
Acquisition Regulation are formally included in Lakeshore’s subcontracts.

 Recommendation 6. We recommend that the International Boundary and Water Commission
(IBWC) contracting officer for IBWC Contract No. IBM10C0004 require the contractor
Lakeshore Engineering Services, Inc., to ensure that its personnel are aware of the reporting
requirements of FederalReporting.gov, specifically, how to calculate the number of jobs created
and retained under IBWC’s Recovery Act construction contract, and to ensure that required
reports are accurate.




                                                8

                                       UNCLASSIFIED
                                             UNCLASSIFIED



                                                                                                 Appendix A

                                       Scope and Methodology
         The Department of State, Office of Inspector General, Office of Audits, engaged Cotton
& Company, LLP (referred to as “we” in this appendix), to conduct performance audits of
contractors that received American Recovery and Reinvestment Act (Recovery Act) funds from
the International Boundary and Water Commission (IBWC). One contractor selected for review
was Lakeshore Engineering Services, Inc. The audit included Recovery Act funds expended
through September 30, 2010, with fieldwork conducted in November 2010. Fieldwork was
conducted in September 2010 at the headquarters office of Lakeshore Engineering Services, Inc.,
in Detroit, Michigan.

        We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on the audit objective.

        To meet our audit objective, we used the following methodology:

        	 Reviewed documentation available on the Internet for Lakeshore and its
           subcontractors to evaluate their eligibility to perform on Government contracts and
           validate the entity status of the companies.

        	 Selected and tested a sample of Recovery Act reports on the Web site
           FederalReporting.gov to determine whether the information reported was accurate
           and supported.

        	 Determined whether Lakeshore had processes that were established and functioning
           to ensure compliance with Buy American Act requirements.

        	 Selected and tested a sample of Lakeshore- and subcontractor-certified payrolls to
           verify compliance with Davis-Bacon Act1 and Copeland Act2 requirements and to
           verify that processes were in place to validate employment eligibility of those
           individuals performing on the contract.

        	 Reviewed and evaluated subcontracts executed by Lakeshore to ensure inclusion of
           proper clauses, receipt of debarment certifications, notification made to IBWC of
           active subcontracts, and timely payments.


1
  The Davis-Bacon Act requires Federal contractors to pay prevailing wages, as defined by the Wage and Hour
Division of the U.S. Department of Labor, on Federally funded or assisted construction projects.
2
  The Copeland “Anti-Kickback” Act prohibits Federal contractors or subcontractors engaged in building
construction or repair from inducing an employee to give up compensation

                                                       9
                                                         
                                             UNCLASSIFIED 
                                       UNCLASSIFIED



       	 Evaluated whether Lakeshore and its subcontractors had proper programs in place to
          ensure compliance with code of business ethics, equal opportunity, and affirmative
          action requirements.

       We discussed tentative results of this audit with Lakeshore officials during fieldwork and
with IBWC officials on January 12, 2011.

Review of Internal Controls

        We reviewed the contractor Lakeshore’s controls to ensure its own and subcontractor
compliance with contractual and regulatory requirements. We determined that Lakeshore did not
have appropriate controls established to ensure compliance with contractual and regulatory
requirements. Specifically, Lakeshore did not have controls established to ensure that its
subcontractors complied with requirements of the Federal Acquisition Regulation as they
pertained to paying employees correct rates, ensuring employment eligibility, and maintaining
appropriate code of conduct and affirmative action programs. Additionally, Lakeshore did not
have a process in place to ensure that required subcontractor forms and debarment certifications
were received at the commencement of the subcontracts. It also did not have appropriate
controls established to submit accurate Recovery Act reports, specifically, regarding the number
of jobs retained and created.

       Implementing recommendations contained in the report will improve controls over
ensuring compliance with required laws and regulations and accurately reporting Recovery Act
spending to the public.
 
Use of Computer-Processed Data

        We used payroll files, job cost data, and other financial reports from the contractor
Lakeshore’s systems to test the accuracy of its reporting of information on the Web site
FederalReporting.gov. We also validated expenditures listed in IBWC’s budgetary and billing
systems to ensure the accuracy of its reporting on FederalReporting.gov. We found no
unexplained discrepancies in the expenditure data reported. Although we found inaccuracies in
the data reported on FederalReporting.gov, these inaccuracies resulted from Lakeshore’s
misunderstanding of reporting requirements and were not caused by automated data system
issues.




                                               10
                                                 
                                       UNCLASSIFIED 
                                                     UNCLASSIFIED



                                                                                                                  Appendix B


                               INTERNA1 10NAI BOUNDARY AND WATER Cm.IMISSION
                                          UNITED STATES AND \1EXICO

                                                        June 8, 2011




       •
    ~Iun rtlH\'''" , _",~
     ""Il",Afl_'   :"I .....




        United Slates Department of State and the Broadcasting Board of Governors
        Office of Inspector General
        Attn : Evelyn R. K[emsline, Assistant Inspector General for Audits
        2201 C, Street, N,W,
        Washington, D.C. 20520-0308


        Subject OIG Audit of International Boundary and Water Commission Construction
        Contract with lakeshore Engineering Services, Inc.


        Dear Ms. Klemstine:

        We are pleased to provide you the attached responses to the findings and
        recommendations shown in the draft audit report entitled Audit of International Boundary
        and Water Commission Construction Contract with lakeshore Engineering Services,
        Inc., using Funds provided by the American Recovery and Reinvestment Act Draft
        Report dated May 31, 2011 .

        We note that improvements have already been made in the USI8WC Acquisition
        Division in response to the recommendations provided in the audit report, and specific
        responses to each finding and recommendation are provided.


                                                    Sincerely,




                                                    Edward Drusina, P.E.
                                                    Commissioner

        Attachment as Stated

        ce:
        D. Forti, C. Parker

              nlC Common~,         13uildmg C. Suilc 100 . 41 71 N. Mesa Street . El P.:tso, TcxilS 79902-144 I
                                (915) 8324100 . fax: (91 5) 8324190 . http://www.ibwc.gov




 

                                                                 11 

                                                                    
                                                     UNCLASSIFIED 
                                UNCLASSIFIED





Thank you for the copy of your report dated May 2011 , we greatly appreciate the
opportunity to respond to the report.

The u srBWC generally agrees with all of the DIG recommendations, and each
recommendation and suggestion that was noted in the report is addressed below:

DIG recommendations and USIBWC response:

   1. Recommendation 1: We recommend that the USIBWC contracting offICer for
      IBWC Contract no. IBM10C0OO4 require the contractor Lakeshore Engineering
      Services, Inc. to implement procedures to ensure that its subcontractors comply
      with requirements of the Federal Acquisition Regulation as they pertain to paying
      employees proper rates, ensuring employment eligibility, and maintaining
      appropriate code of conduct and affirmative action programs.

      Response: The Contracting Officer will issue a Deficiency and Omission Report
      to lakeshore Engineering Services, Inc. identifying its failure to implement the
      f1ow-down clauses with its subcontractors and require a plan of action for
      implementation .

   2. Recommendation 2: We recommend that the USI BWC contracting officer for
      IBWC Contract no. IBM10COO04 ensure that Lakeshore Engineering Services,
      Inc.'s subcontractor Construction Surveying Services adjusts the rate of pay for
      its laborers to be in compliance and pay the amounts owed.

      Response: The Contracting Officer will issue
                                                   a notice to lakeshore Engineering
      identifying a potential DOL violation with Construction Surveying Services and
      requiring evidence of action taken to resolve the matter on or before Jun 30,
      2011.

   3. Recommendation 3: We recommend that the USIBWC contracting officer for
      IBWC Contract no. IBM10COOO4 ensure that the contractor Lakeshore
      Engineering Services, Inc., require its current subcontractors to retroactively
      submit certifications stating that they or their principals are not debarred,
      suspended , or proposed for debarment.

      Response: The Contracting OffICer will issue notice to Lakeshore Engineering
      Services, Inc. requiring evidence of certifications as submitted by its
      subcontractors stating that they or their prinCipals are not debarred , suspended ,
      or proposed for debarment.

   4. Recommendation 4: We recommend that the USIBWC contracting officer for
      IBWC Contract no. IBM1OCOOO4 ensure that the contractor Lakeshore
      Engineering Services, Inc., establishes procedures to obtain certifications that its
      subcontractors are not debarred, suspended or proposed for debarment before it
      awards additional subcontracts.

                                            ,



                                          12 

                                            
                                UNCLASSIFIED
 
                               UNCLASSIFIED





      Response: The Contracting Officer will issue notice to Lakeshore Engineering
      Services, Inc. requiring by Jun 30, 2011 certification that it has established
      procedures to obtain certifications that its subcontractors are not debarred ,
      suspended Of proposed for debarment before it awards additional subcontracts.

   5. Recommendation 5: We recommend that the USIBWC contracting officer for
      IBWC Contract no. IBMI0C0004 require the prime contractor to ensure that all
      relevant clauses in the FAR are formally induded in Lakeshore's subcontracts.

      Response: The Contracting Officer will require a certification from Lakeshore
      Engineering to be submitted by Jun 30, 2011 stating that is has ensured all
      relevant clauses have been formally included in Lakeshore's subcontracts .

   6. Recommendation 6: We recommend that the USIBWC contracting officer for
      IBM10COOO4 require the prime contractor to ensure that its personnel are aware
      of FederalReporting .gov reporting requirements under its ARRA construction
      contract and submit required reports that are complete and accurate.

      Response: The FederalReporting.gov website provides online training to
      contractors wtlich we agree may be underutilized by the prime and
      subcontractors alike. This offICe will require ARRA recipients certify that their
      ARRA reporting specialists have taken the seven (7) webinars this training within
      60 days of this response to audit.


Thank you again for the opportunity to respond to this draft report and please advise us
                                                 about this response letter.
of any follow-up questions, comments, or concems

You may reach Hugo White, Acquisitions Division Chief at 915-832-4711 or Christopher
ParKer, Internal Audit Program Manager at 915-832-4794 or via email at
HugoWhite@ibwcgov or Chnstopher.Parker@ibwc.gov.




                                              )




                                         13 

                                           
                               UNCLASSIFIED
 
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
                 of Federal programs

            and resources hurts everyone.




         Call the Office of Inspector General

                      HOTLINE

                     202/647-3320

                  or 1-800-409-9926

        to report illegal or wasteful activities.



               You may also write to

             Office of Inspector General

              U.S. Department of State

               Post Office Box 9778

                Arlington, VA 22219


       Please visit our Web site at oig.state.gov


           Cables to the Inspector General

          should be slugged “OIG Channel”

              to ensure confidentiality.

UNCLASSIFIED





UNCLASSIFIED

